Report No. DODIG-2012-104               June 18, 2012





    DoD Needs to Improve Vocational Training Efforts to 

       Develop the Afghan National Security Forces 

         Infrastructure Maintenance Capabilities

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7461, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      4800 Mark Center Drive (Room 13F25-04)
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AED-N                         Afghanistan Engineering District-North
AED-S                         Afghanistan Engineering District-South
ANSF                          Afghan National Security Forces
COR                           Contracting Officer’s Representative
CSTC-A                        Combined Security Transition Command-Afghanistan
FAR                           Federal Acquisition Regulation
GIRoA                         Government of the Islamic Republic of Afghanistan
ITAG                          Infrastructure Training Advisory Group
ITT                           ITT Systems Corporation
NTM-A                         North Atlantic Treaty Organization Training
                                 Mission-Afghanistan
QASP                          Quality Assurance Surveillance Plan
USACE                         U.S. Army Corps of Engineers
                                      INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE
                                    ALEXANDRIA, VIRGINIA 22350-1500




                                                                                       June 18, 2012
MEMORANDUM FOR COMMANDING GENERAL, NATO TRAINING MISSION-
                  AFGHANISTAN/COMBINED SECURITY TRANSITION
                  COMMAND-AFGHANISTAN
               COMMANDING GENERAL, U.S. ARMY CORPS OF
                  ENGINEERS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: DoD Needs to Improve Vocational Training Efforts to Develop the Afghan National
         Security Forces Infrastructure Maintenance Capabilities
         (Report No. DODIG-2012-104)
We are providing this report for your review and comment. We considered comments on a draft of
this report when preparing the final report. In July 2010, U.S. Army Corps of Engineers (USACE)
contract officials awarded two contracts to conduct operations and maintenance services for the
Afghan National Security Forces, valued at $800 million, which included providing vocational
training. However, the vocational training provided under the contracts did not effectively develop
the Afghan National Security Forces’ infrastructure maintenance capabilities. As a result, DoD is at
an increased risk of not meeting its goal to transition facility operations and maintenance
responsibilities to the Afghan National Security Forces by the end of 2014. In addition, the
approximately $10.3 billion planned U.S. investment in facilities may be diminished if the Afghan
National Security Forces are unable to maintain their infrastructure.
DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments from
the Interim Director, CSTC-A Combined-Joint Engineering Directorate, were partially responsive.
We request that by July 3, 2012, the Commander, Combined Security Transition Command-
Afghanistan provide additional comments on Recommendation 1 and 2.f. The comments from the
USACE Chief, Security Assistance Branch, Directorate of Military Programs, were responsive and
we do not require additional comments. We also clarified subsection Performance Standards and
revised and deleted our recommendations based on comments provided by the USACE Chief,
Security Assistance Branch, Directorate of Military Programs.
Please provide comments that conform to the requirements of DoD Directive 7650.3. If possible,
send a portable document format (.pdf) file containing your comments to audjsao@dodig.mil.
Copies of your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual signature. If you
arrange to send classified comments electronically, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).
We appreciate the courtesies extended to the staff. Please direct questions to Michael J. Roark at
703-604-9187 (DSN 312-664-9187).



                                                  Amy J. Frontz
                                                  Principal Assistant Inspector General
                                                    for Auditing
Report No. DODIG-2012-104 (Project No. D2011-D000JO-0137.000)                            June 18, 2012

             Results in Brief: DoD Needs to Improve Vocational
             Training Efforts to Develop the Afghan National Security
             Forces Infrastructure Maintenance Capabilities

                                                       Forces are unable to maintain their
 What We Did                                           infrastructure.
 We determined whether vocational training
 provided under the contracts to conduct               What We Recommend
 operations and maintenance services for the           Among other recommendations, we
 Afghan National Security Forces (operations           recommend that CSTC-A execute existing
 and maintenance contracts) was effective in           transition strategy initiatives and develop new
 developing the Afghan National Security               initiatives to accelerate development of
 Forces infrastructure maintenance                     Afghan National Security Forces
 capabilities.                                         infrastructure maintenance capabilities.
 What We Found                                         In addition, CSTC-A, in coordination with
 Vocational training provided under the                USACE officials, should accelerate training
 operations and maintenance contracts did not          implementation at Afghan National Security
 effectively develop Afghan National Security          Forces sites with an Infrastructure Training
 Forces infrastructure maintenance                     Advisory Group presence.
 capabilities. Specifically, U.S. Army Corps
 of Engineers (USACE) and Combined                     We also recommend that USACE, in
 Security Transition Command-Afghanistan               coordination with CSTC-A officials, update
 (CSTC-A) officials did not require the                the contracts and monthly contracting
 contractor to implement vocational training at        officer’s representatives’ report templates to
 9 of the 18 Afghan National Security Forces           properly monitor the contractor’s
 sites required by the contracts. This occurred        performance of vocational training.
 because CSTC-A Infrastructure Training
 Advisory Group officials were still                   Management Comments and
 developing their transition strategy and
 assessing the feasibility of implementing             Our Response
 training at additional sites.                         The Interim Director, CSTC-A Combined-
                                                       Joint Engineering Directorate, comments
 In addition, USACE officials did not                  were partially responsive to the
 incorporate measurable performance                    recommendations and the USACE Chief,
 standards in the contracts or conduct                 Security Assistance Branch, Directorate of
 sufficient quality assurance activities because       Military Programs, comments were
 officials considered the vocational training          responsive to the recommendations. We also
 portion of the contracts to be negligible in          revised one recommendation and deleted a
 relation to the value of operations and               recommendation based on comments
 maintenance services to be performed.                 provided by the USACE Chief, Security
                                                       Assistance Branch, Directorate of Military
 As a result, CSTC-A will continue to be at an         Programs.
 increased risk for not meeting its goal to
 transition facility operations and maintenance        We request management comments from the
 responsibilities to the Afghan National               Commander, Combined Security Transition
 Security Forces by the end of 2014. In                Command-Afghanistan on Recommendations
 addition, the approximately $10.3 billion             1 and 2.f by July 3, 2012. Please see the
 planned U.S investment in facilities may be           recommendation table on the back of this
 diminished if Afghan National Security                page.


                                                   i
Report No. DODIG-2012-104 (Project No. D2011-D000JO-0137.000)      June 18, 2012


Recommendations Table

       Management                 Recommendations           No Additional
                                 Requiring Comment       Comments Required
Commander, Combined           1, 2.f                  2.a-e
Security Transition
Command-Afghanistan
Commander, U.S. Army                                  3
Corps of Engineers,
Transatlantic Division
Commander, U.S. Army                                  4
Corps of Engineers,
Afghanistan Engineering
District-South
Commander, U.S. Army                                  4
Corps of Engineers,
Afghanistan Engineering
District-North

Please provide comments by July 3, 2012.




                                           ii
Table of Contents

Introduction                                                                    1


      Objective                                                                 1
      Background                                                                1
      Review of Internal Controls                                               3


Finding. Vocational Training Provided Did Not Effectively Develop Afghan 

National Security Forces Infrastructure Maintenance Capabilities                4


      Contract Vocational Training Requirements                                 4

      DoD Officials Did Not Require the Contractor to Implement Vocational 

        Training Requirements in Accordance With the Contracts                  5

      Infrastructure Training Advisory Group Had Challenges Developing and 

        Implementing Its Transition Strategy                                    6

      Performance Standards and Quality Assurance Activities Are Needed

        to Assess the Contractor’s Performance                                 10 

      Additional Emphasis Needed for Vocational Training                       13 

      Conclusion                                                               14
      U.S. Army Corps of Engineers Management Comments on the Finding 

        and Our Response                                                       14 

      U.S. Army Corps of Engineers Management Comments on the Finding 

        Discussion and Our Response                                            15 

      Revised and Deleted Recommendations                                      15 

      Recommendations, Management Comments, and Our Response                   16 


Appendix

      Scope and Methodology                                                    19 

         Use of Computer-Processed Data                                        19 

         Prior Coverage                                                        20 


Management Comments

      Combined Security Transition Command-Afghanistan                         21 

      U.S. Army Corp of Engineers                                              25 

Introduction
Objective
We performed this audit pursuant to Public Law 110-181, “National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires:

                 thorough audits…to identify potential waste, fraud, and abuse in
                 performance of (1) Department of Defense contracts, subcontracts, and
                 task and delivery orders for the logistical support of coalition forces in
                 Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts,
                 and task and delivery orders for the performance of security and
                 reconstruction functions in Iraq and Afghanistan.

Our overall objective was to determine whether vocational training provided under the
contracts to conduct operations and maintenance services for the Afghan National
Security Forces (ANSF) was effective in developing the infrastructure maintenance
capabilities of the ANSF. See the appendix for a discussion of the audit scope,
methodology, and prior coverage related to the audit objective.

Background
The strategy in Afghanistan involves conducting operations to reduce the capability and
will of the insurgency, support the growth in capacity and capability of the ANSF, and
facilitate improvements in governance and socio-economic development to provide a
secure and sustainable environment. As the ANSF demonstrates continued growth in
capacity and capability, the U.S. role will transition from one of combat to support. With
the ANSF on target for meeting its approved end strength, the next few years are pivotal
to the development of skilled personnel capable of executing the necessary support
functions to sustain the ANSF forces. One of the support functions that the ANSF must
develop before taking full responsibility for its own security by the end of 2014 is the
ability to maintain their own infrastructure. The United States expects to invest
approximately $10.3 billion in the ANSF infrastructure from 2005 through 2012.

Roles and Responsibilities
The Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/
Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A), is responsible
for supporting the Government of the Islamic Republic of Afghanistan (GIRoA) as it
generates and sustains the ANSF, develops leaders, and establishes enduring institutional
capacity to enable accountable Afghan-led security.1 To fulfill part of that mission,


1
 The Commander, NTM-A/CSTC-A, executes this responsibility in coordination with North Atlantic
Treaty Organization nations and partners, international organizations, donors, and nongovernmental
organizations.

                                                     1

NTM-A/CSTC-A established the Infrastructure Training Advisory Group (ITAG), which
is composed of U.S. military personnel responsible for training, mentoring, and
synchronizing operations and maintenance efforts at ANSF sites. ITAG is also
responsible for developing and executing a strategy to transition sustainment of the
ANSF infrastructure to the GIRoA by the end of 2014. As part of that strategy, ITAG is
responsible for overseeing training and mentoring initiatives, working with Afghan
leaders to implement training for facility maintenance personnel at ANSF sites, and
assessing the effectiveness of existing operations and maintenance services. In addition,
ITAG is continually assessing the ANSF’s capability to independently sustain its
infrastructure through the transition process.

National Operations and Maintenance Contracts
To assist CSTC-A’s efforts in the day-to-day infrastructure maintenance activities
necessary to ensure that ANSF buildings and structures are properly maintained, the U.S.
Army Corps of Engineers (USACE) awarded two operations and maintenance contracts.
The USACE Middle East District2 awarded contracts W912ER-10-D-0002 and
W912ER-10-D-0003 to ITT Systems Corporation (ITT) on July 26 and 27, 2010,
respectively. Both contracts were firm-fixed-price contracts with a base year and four
option years, valued at $800 million. USACE Afghanistan Engineering District-North
(AED-N) managed contract W912ER-10-D-0002 and USACE Afghanistan Engineering
District-South (AED-S) managed contract W912ER-10-D-0003. Table 1 illustrates the
estimated value of each contract by the base and option years.

              Table 1. Afghanistan Operations and Maintenance Contracts
                                               North                 South
Contract          Ordering Period       W912ER-10-D-0002      W912ER-10-D-0003
Base           07/27/2010 - 07/26/2011         $ 75,000,000
Year           07/28/2010 - 07/27/2011                                $ 50,000,000
Option 1       07/27/2011 - 07/26/2012            75,000,000
               07/28/2011 - 07/27/2012                                  75,000,000
Option 2       07/27/2012 - 07/26/2013           100,000,000
               07/28/2012 - 07/27/2013                                  75,000,000
Option 3       07/27/2013 - 07/26/2014           100,000,000
               07/28/2013 - 07/27/2014                                  75,000,000
Option 4       07/27/2014 - 07/26/2015           100,000,000
               07/28/2014 - 07/27/2015                                  75,000,000
    Total                                       $450,000,000          $350,000,000




2
 In August 2011, USACE realigned the USACE Transatlantic Division to oversee the activities of the
USACE Middle East District, USACE Afghanistan Engineering District-North, and Afghanistan
Engineering District-South.

                                                   2

Both contracts required ITT to provide infrastructure maintenance at ANSF sites located
throughout Afghanistan. To assist CSTC-A in its training initiatives, ITT was also
responsible for providing the ANSF with vocational training in the following trades:
heating, ventilation, and air conditioning; electrical; carpentry; welding; painting;
plumbing; and masonry. Training included classroom, on-the-job training, job
shadowing, and managerial training for skilled and trade employees. During the base
year, July 2010 through July 2011, the USACE contracting officer obligated $4.2 million
for vocational training. As of September 2011, the contractor invoiced for approximately
$3.0 of $4.2 million.

U.S. Army Corps of Engineers Contract Management
and Oversight
To manage and monitor the operations and maintenance contracts, USACE appointed a
contracting officer from the USACE Middle East District in Winchester, Virginia. The
contracting officer designated contracting officer’s representatives (CORs) in
Afghanistan Engineering District-South in Kandahar, Afghanistan, and Afghanistan
Engineering District-North in Kabul, Afghanistan. The contracting officer was
responsible for overall contract management, to include ensuring compliance with the
terms and conditions of the contracts and notifying the contractor if standards are not
met. The contracting officer was also responsible for approving contract modifications
on behalf of the Government. The contracting officer delegated authority to CORs to
verify that the contractor performed the technical requirements of the contracts. CORs
also serve as quality assurance representatives responsible for monitoring the quality of
infrastructure maintenance and vocational training provided under the terms and
conditions of the contracts.3 As of December 2011, the contracting officer designated
26 active CORs: 15 CORs for contract W912ER-10-D-0002 (of which one was assigned
to training), and 11 CORs for contract W912ER-10-D-0003 (of which none4 were
assigned to training).

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses at USACE. Specifically, USACE officials did not incorporate measurable
performance standards in the contracts or conduct sufficient quality assurance activities
to assess vocational training in accordance with Federal Acquisition Regulations. We
will provide a copy of this report to senior officials in charge of internal controls at
USACE.



3
 For consistency in the report, we will use the term “COR” when referring to the roles and responsibilities
of a quality assurance representative.
4
 An individual was selected to be the COR for training but as of December 31, 2011 was still not officially
designated with a COR designation letter.

                                                     3

Finding. Vocational Training Provided Did
Not Effectively Develop Afghan National
Security Forces Infrastructure Maintenance
Capabilities
Vocational training provided under the two Afghanistan operations and maintenance
contracts did not effectively develop ANSF infrastructure maintenance capabilities.
Specifically, USACE and CSTC-A officials did not require the contractor to implement
vocational training at 9 of the 18 ANSF sites as required by the contracts in the base year
because ITAG officials were still developing their transition strategy and assessing the
feasibility of implementing training at additional sites. In addition, USACE officials did
not incorporate measurable performance standards in the contracts or conduct sufficient
quality assurance activities because officials considered the vocational training portion of
the contracts to be negligible in relation to the value of operations and maintenance
services to be performed. As a result, CSTC-A will continue to be at an increased risk
for not meeting its goal to transition operations and maintenance responsibilities to the
ANSF by the end of 2014. In addition, the approximately $10.3 billion planned U.S.
investment in facilities through 2012 may be diminished if ANSF is unable to maintain
their infrastructure.

Contract Vocational Training Requirements
Both operations and maintenance contracts contained the same vocational training
requirements. During the base year, the contracts required ITT to design and implement
a training program using classroom and practical learning at nine ANSF sites in northern
Afghanistan by December 1, 2010, at an estimated value of $2.2 million; and nine ANSF
sites in southern Afghanistan by December 1, 2010, at an estimated value of $2 million.5
After USACE identifies the sites, in coordination with CSTC-A and ANSF personnel, the
contracts state that training at the 18 sites was to be

                 conducted for the purpose of and subsequent transfer of
                 responsibility of all O&M [operation and maintenance] functions
                 and services provided in the contracts to the ANSF and Contractor
                 trained workforce.         The KO/ACO [contracting officer/
                 administrative contracting officer] shall identify additional sites as
                 recommended by the Contractor or the MOD/MOI [Ministry of
                 Defense/Ministry of Interior] and CSTC-A to provide additional
                 training classes. Transfer of responsibility of O&M [operation and
                 maintenance] functions and services provided in this contract to the
                 ANSF following base year training shall be determined on a case by
                 case basis and approved by the KO/ACO [contracting officer/
                 administrative contracting officer]. Additional transfer of O&M


5
  Although the contracts required ITT to implement a training program at an additional 40 ANSF sites in
northern and southern Afghanistan, the timeframe in the contract for when ITT had to implement training at
those 40 ANSF sites was not clear. Therefore, we reported the conservative estimate of 18 ANSF sites for
which ITT was required to provide training in the base year.

                                                    4

                  [operation and maintenance] services shall occur in the second and
                  third option years, with the end state being total transfer of
                  responsibility and operation of O&M [operation and maintenance]
                  facilities and systems to the ANSF. All additional transfers of O&M
                  [operation and maintenance] services shall be determined on a case by
                  case basis and approved by the KO/ACO [contracting officer/
                  administrative contracting officer]. [emphasis added]

DoD Officials Did Not Require the Contractor to
Implement Vocational Training Requirements in
Accordance With the Contracts
USACE and CSTC-A officials did not require that the contractor implement vocational
training at 9 of the 18 ANSF sites as required by the contracts in the base year. Instead,
in November 2010, a USACE official verbally directed ITT to consolidate current
training efforts and begin training at one site, the Construction and Property Management
Department Facility Engineer Vocational and Technical Training School (vocational
school) in Kabul, Afghanistan. A USACE official directed this change because CSTC-A
made a commitment to the Afghan National Army Construction and Property
Management Department Commander to provide training at the vocational school.
Figure 1. Afghan National Army Electrical         According to a USACE official, a CSTC-A
Training                                          official requested ITT’s delay in
                                                  implementing vocational training at the
                                                 remaining sites until the vocational school
                                                 was operational in January 2011.6 It was
                                                 not until February 2011, approximately
                                                 6 months after the base year began, that the
                                                 USACE contracting officer instructed ITT
                                                 to begin vocational training at additional
                                                 sites. See Table 2 for a list of the nine sites
                                                 that had vocational training by the end of
                                                 the base year and the additional eight sites
                                                 with vocational training as of
                                                 December 2011.




6
 The vocational school provided 60 ANSF students a 6-month classroom education in math, computers,
and Dari, combined with practical learning exercises in facilities maintenance trades (such as carpentry,
plumbing, and painting). Sixty students attended the first session from January through July 2011.
Approximately 60 students were enrolled in the second session from October 2011 to March 2012.


                                                     5

                              Table 2. ANSF Vocational Training Status
                        ANSF                         Region of          Date ITT Implemented
                         Site                       Afghanistan          Vocational Training
                                               Contract Base Year
  Vocational School                                     North                 January 2011
  Camp Sayar                                            South                 January 2011
  Camp Hero                                             South                  March 2011
  Camp Darulaman                                        North                   April 2011
  Kabul Military Training Center                        North                   April 2011
                                       1
  North Kabul International Airport                     North                   April 2011
  Camp Commando                                         North                   May 2011
  Parsa1                                                North                   May 2011
                                  2
  National Military Hospital                            North                   May 2011
                                        Contract Option Year 1
            1
  Gamberi                                               North                September 2011
            1
  Shaheen                                               North                September 2011
  Konduz1                                               North                September 2011
                    1
  Pol-e Charki                                          North                September 2011
  Gardez1                                               North                November 2011
                1
  Jalalabad                                             North                November 2011
                                           1
  Kabul Logistics Acquisition Center                    North                November 2011
                          1
  Ministry of Interior                                  North                November 2011
     1
       AED-N contracting officials stated that ITT initiated vocational training at North Kabul 

     International Airport, Parsa, Gamberi, Shaheen, Konduz, Pol-e Charki, Gardez, Jalalabad, 

     Kabul Logistics Acquisition Center, and Ministry of Interior. However, we did not verify 

     this data. 

     2
       National Military Hospital was the last location ITT initiated training in the contract 

     base year. 


Infrastructure Training Advisory Group Had Challenges
Developing and Implementing Its Transition Strategy
The contractor did not implement vocational training at 9 of the 18 ANSF sites as
required by the contracts in the base year because from July 2010 through April 2011,
ITAG officials were still assessing the feasibility of implementing training at additional
sites and developing their strategy to transition infrastructure maintenance capabilities to
the ANSF. ITAG officials stated that they faced multiple challenges while developing
the transition strategy, including insufficient ITAG personnel to fully implement training




                                                       6

initiatives, tashkil7 deficiencies, the ANSF Commanders’ reluctance to allow
maintenance personnel to participate in the training program, and difficulties in ANSF
recruiting due to low pay and competency. In April 2011, ITAG completed its strategy,
the ITAG Campaign Plan and Transition Matrix, outlining CSTC-A’s plan for
transitioning infrastructure maintenance to the ANSF by the end of 2014; however, ITAG
officials at the time of our review continued to face challenges implementing the strategy.

Infrastructure Training Advisory Group Staffing Levels
ITAG officials made the decision to establish contractor-provided vocational training
only at sites where ITAG mentors were present and could assess whether ANSF
personnel were ready to begin training. However, ITAG did not have sufficient
personnel to staff and deploy mentor teams to the 18 ANSF sites during the July 2010 to
2011 base year of the contracts. For example, from June to December 2010, ITAG
staffing only increased from 7 to 22 personnel. By April 2011, when the transition plan
was first completed, ITAG had 26 of the 222 personnel expected to be on staff when
ITAG reaches full strength by the end of 2012.

Based on the assumption that they would receive up to 222 personnel, ITAG developed a
transition strategy using a time-phased approach that would deploy mentor teams to
115 of approximately 384 ANSF sites between 2011 and 2013. At each of the 115 sites,
ITAG officials anticipated an 18-month transition period to prepare the ANSF to assume
responsibility for those buildings and structures that ITT maintains. During that
transition period, ITT personnel would be responsible for conducting training while
ITAG officials mentor the ANSF and perform monthly assessments. Once ITAG
officials determine that the ANSF maintenance personnel are capable of maintaining
those buildings and structures, ITAG and USACE will remove the buildings from the
operations and maintenance contracts and transition them to ANSF control.

In October 2011, ITAG officials substantially revised their transition strategy, reducing
both the number of ITAG personnel they planned to receive and the number of ANSF
sites to place mentor teams. Specifically, the revised strategy anticipates that ITAG will
receive only 141 personnel by the end of 2012, a reduction of 81 personnel. In addition,
the revised strategy states that mentor teams will be placed at only 58 of the 115 sites
originally planned, an almost 50 percent reduction in the original number of training
sites. ITAG officials stated that the reduction in sites was based on multiple factors, to
include the number of planned buildings not yet built or remote sites that did not have
coalition forces present or adequate security measures in place. For those sites, ITAG
officials stated that the ANSF would most likely have to train their own maintenance
personnel or rely on mobile maintenance teams and contracted maintenance support. As
of December 2011, the number of ITAG personnel had grown to 116 with an established
mentor presence at 30 sites; however, only some of the buildings and structures have
been transitioned to the ANSF.


7
 A tashkil is an authoritative Afghan document that lists by the Afghan solar calendar year the units’
authorized personnel and equipment.


                                                     7

                                      The increase of ITAG staffing to the number of
       As of December 2011, the
                                      personnel needed by the end of 2012 is imperative
    number of ITAG personnel had
                                      to successfully implementing the revised transition
         grown to 116 with an
                                      strategy, enabling them to staff and deploy the
    established mentor presence at
                                      remaining mentor teams at additional sites by 2013.
    30 sites; however, only some of
                                      To increase assurance that CSTC-A will meet its
     the buildings and structures
                                      2014 year-end transition goal, CSTC-A ITAG and
     have been transitioned to the
                                      USACE officials should accelerate training
                 ANSF.
                                      implementation at sites that have ITAG mentors. In
addition, CSTC-A ITAG should expeditiously staff and deploy mentors to the remaining
ANSF sites as specified in the most current version of the ITAG Campaign Plan.

Afghan National Security Forces Personnel Authorized and
Available for Training
An ITAG official stated that before ITT could initiate training at ANSF sites, ITAG and
USACE had to overcome the challenge of ANSF Commanders’ reluctance to allow
maintenance personnel to participate in the training program. ITAG officials stated that
ANSF Commanders indicated that they needed these personnel to sustain the buildings
and structures not maintained under the operations and maintenance contracts.8 At the
six ANSF sites we visited that had implemented training as of July 2011,9 the tashkil
authorized approximately 300 maintenance personnel, of which approximately
110 personnel were enrolled in the training program. In addition, some ANSF
Commanders stated that they would release less than half of the enrolled personnel to
attend training each day.

To increase the number of maintenance personnel allowed to participate in training,
CSTC-A officials began working with Ministry of Defense officials to draft a directive
recognizing the Chief, Construction and Property Maintenance Directorate, as the official
authority to direct facilities maintenance for the Afghan National Army throughout
Afghanistan. The directive also directs the Chief, Construction and Property
Maintenance Directorate, to provide training for the facilities maintenance personnel.
The Minister of Defense signed the directive on December 28, 2011. CSTC-A officials
should communicate to the Ministry of Defense the need to expedite the directive’s
implementation to ensure that maintenance personnel are allowed to participate in
vocational training.

The ANSF tashkil for solar year 1389 did not authorize sufficient personnel to operate
and maintain the facilities provided for under the contracts in addition to their current
maintenance responsibilities.10 As part of their transition strategy, CSTC-A officials



8
  The contracts provide operations and maintenance services for USACE- or Air Force Center for 

Engineering and the Environment (AFCEE) -constructed buildings and structures. 

9
  The six sites do not include the vocational school.

10
   Solar year 1389 is March 21, 2010, through March 20, 2011. 



                                                   8

began coordinating with the Afghan Ministry of Defense and Ministry of Interior to
increase the number of authorized maintenance positions on their tashkils. With
CSTC-A’s assistance, the Ministry of Defense approved and began implementing
changes to tashkil 1390, which increased the number of authorized maintenance
personnel at some sites from 24 to either 65 or 80 personnel, depending on the unit size
and location. A CSTC-A official stated that the tashkil increases should be sufficient to
maintain the current and future Ministry of Defense infrastructure when supplemented
with Afghan-led maintenance contracts for technical facility systems, such as wastewater
treatment plants and major electrical systems.

Although ITAG officials collaborated with the Ministry of Interior to increase the number
of authorized maintenance positions on their tashkil, those changes are not expected to be
approved and implemented until sometime in 2012. Specifically, the Ministry of Interior
issued a facilities maintenance concept plan for solar year 1391, which should increase
the number of maintenance personnel in solar years 1391 and 1392 to sustain the existing
and future facilities throughout Afghanistan. CSTC-A officials should continue to work
with Ministry of Interior officials to ensure that their future tashkils authorize a sufficient
number of maintenance personnel and that the maintenance personnel are allowed to
participate in vocational training.

Recruitment and Retention of Afghan National Security Forces
Maintenance Personnel
ITAG officials stated that the ANSF had difficulty recruiting and retaining maintenance
personnel due to low pay and competency. For example, an ITAG official stated that
skilled maintenance personnel could usually earn a higher wage in the private sector. In
addition, most ANSF maintenance personnel are illiterate and unskilled in the vocational
Figure 2. Electrical    trades needed for facilities maintenance. An ITAG official
Training at Kabul       further stated that to assist ANSF in recruiting and retention
Military Training
Center
                        efforts, CSTC-A personnel worked with the Afghan Ministry of
                        Defense to increase tashkil 1390 pay levels for maintenance
                         personnel. Furthermore, CSTC-A officials stated that they
                         collaborated with Ministry of Defense officials to draft a hiring
                         policy for facility maintenance personnel to increase assurance
                         that qualified personnel are selected. The draft policy includes
                         giving hiring priority to those contractor employees already
                         working at the site, filling senior positions with individuals that
                         have professional degrees, and hiring maintenance personnel
                         graduating from ANSF vocational and local trade schools who
                         have passed qualification tests. However, as of December 22,
                         2011, the Minister of Defense had not signed the new hiring
                         policy.

CSTC-A officials should continue to monitor the status of the Ministry of Defense hiring
policy and communicate to Ministry officials the need to expedite implementation of the
policy. CSTC-A officials should also work with the Ministry of Interior to develop a
comparable hiring policy and strategies. The establishment and implementation of

                                              9

Ministry of Defense and Ministry of Interior hiring policies will increase assurance that
qualified maintenance personnel are recruited and retained.

Other Initiatives Not Yet Fully Implemented
According to a CSTC-A official, the training initiatives were not expected to provide a
sufficient number of capable maintenance personnel necessary to maintain all ANSF
facilities by the end of 2014. Instead, the April 2011 ITAG Campaign Plan outlined
other initiatives that, if implemented, could further assist the ANSF in assuming full
control of its facility sustainment. Other initiatives included:

   	 developing an Afghan-managed operations and maintenance contract, 

   	 recruiting graduates from commercial vocational trade schools and subsidizing
      pay, and  

   	 transitioning contractor personnel to ANSF positions.

CSTC-A officials stated that Ministry of Defense officials had begun taking action to
implement some of these initiatives, such as recruiting graduates of local commercial
trade schools and collaborating with the Chief, Construction and Property Maintenance
Directorate, to develop an Afghan-managed operations and maintenance contract for one
facility. ITAG’s Campaign Plan contained no changes to the remaining initiatives
between April and December 2011. CSTC-A and USACE officials should expedite full
implementation of the initiatives identified in the ITAG Campaign Plan and develop new
initiatives to accelerate the development of ANSF infrastructure maintenance
capabilities. 

Performance Standards and Quality Assurance
Activities Are Needed to Assess the Contractor’s
Performance
USACE officials did not incorporate measurable performance standards in the contracts
or conduct sufficient quality assurance activities. Specifically, USACE did not
incorporate adequate measurable performance standards in any of the sections of the
operations and maintenance contracts sufficient to assess the quality of vocational
training and the ability of ANSF personnel to assume responsibility for operations and
maintenance services. In addition, the monthly COR reports did not evaluate the quality
of the contractor’s vocational training efforts.

Performance Standards
USACE contract officials awarded the operations and maintenance contracts without
adequate measurable performance standards. The Federal Acquisition Regulation (FAR)
Part 37, “Service Contracting,” states that when issuing a performance-based contract for
services, the contract must include a performance work statement and measurable
performance standards to ensure the contractor’s performance meets contract
requirements. It also states that those performance standards must be measurable and

                                            10

structured to permit the Government’s assessment of the contractor’s performance.
According to the contracts, the performance standards would be identified in the
performance work statement and the quality assurance surveillance plan (QASP) would
describe the systematic methods contract officials would use to measure performance and
provide a means for evaluating whether the contractor is meeting the performance
standards identified in the performance work statement.

Neither contract had measurable performance standards in the performance work
statement, which the COR could use to assess whether the contractor was properly
performing the vocational training required by the contracts. For example, the
performance work statement required the contractor to provide carpentry and plumbing
training to ANSF. However, the contracts did not include performance standards to
describe the skill level or type of carpenter or plumber required.11 In addition, the
contracts did not state that the students must complete a specified-length training program
enabling them to perform basic tasks with minimal assistance and pass a skills test with a
minimum test score to prove competency in tasks, such as framing walls, building stairs,
or repairing pipes.

The QASP did contain five performance standards. However, these performance
standards were not sufficient to assess whether the contractor was conducting sufficient
vocational training for the ANSF to assume responsibility of all operations and
maintenance activities. For example, one performance standard directed the COR to
calculate the number of students that had initiated vocational training and the number of
students that graduated from training. Calculating the graduation rates may be useful for
determining how many students completed training, but that measure was not adequate
for determining whether the quality of vocational training provided was sufficient for
ANSF personnel. Another example of a performance standard that did not effectively
evaluate contractor performance included a requirement to create a train-the-trainer
program that resulted in at least five Afghan trainers per year. Instituting a train-the-
trainer program may be measurable, but it did not enable the COR to evaluate the quality
of the contractor’s vocational training efforts.

In September 2011, USACE officials approved the contractor’s training plan for contract
W912ER-10-D-0002. The contractor’s training plan identified the tasks students must be
taught to achieve their tashkil-designated classification level (apprentice, journeyman, or
craftsman) in each facility maintenance trade and stated that training will continue until
the students demonstrate the required proficiency for their classification level. Although
the contractor’s training plan was a deliverable under the contract, according to the FAR,
the Government is still required to develop performance standards to measure contractor
performance to include the quality level that USACE contract officials expect the
contractor to achieve. However, USACE officials at the time of our review still had not


11
  A performance standard for a vocational skill level could be an apprentice, journeyman, or craftsman. A
vocation type for a carpenter could be a finish carpenter, cabinetmaker, or framer. A vocation type for a
plumber could be pipefitter, pipelayer, or steamfitter.


                                                   11

updated the contracts with measurable performance standards to determine whether the
contractor’s performance in training ANSF students to their tashkil-designated
classification level is acceptable.

As of December 2011, USACE contract officials had not approved the contractor’s
training plan for contract W912ER-10-D-0003. To assess whether ANSF personnel
completing vocational training are capable of maintaining their own infrastructure,
USACE should update the contracts to incorporate measurable performance standards
and the quality level the Government expects the contractor to provide.

Monthly Contracting Officer’s Representative Reports
The monthly COR reports did not evaluate the quality of the contractor’s vocational
training efforts. Using a COR report template, USACE officials complete COR reports
on a monthly basis that are designed to document the inspection and evaluation of the
contractor’s performance for conducting operations and maintenance services. However,
the monthly COR report template did not include a requirement to evaluate the quality of
the contractor’s vocational training efforts or whether the ANSF trainees were making
progress in their ability to perform operations and maintenance tasks independently.
FAR Part 46, “Quality Assurance,” states that Government contract quality assurance
will be performed when necessary to determine whether services meet contract
requirements. It also states that the contract administration office must maintain suitable
records reflecting the nature of Government contract quality assurance actions and
decisions regarding the acceptability of processes and requirements. Although the COR
report template did not include vocational training, both AED-S and AED-N officials
stated that they performed limited quality assurance activities in an attempt to monitor
contractor performance.

After USACE contract officials update the contracts, they should update the monthly
COR report template to verify that the contractor is adequately conducting vocational
training that will enable ANSF to perform their own operations and maintenance.

Afghanistan Engineering District-South
The May through August 2011 COR reports did not address vocational training.
However, in September 2011, an AED-S official directed the CORs to begin reviewing
the contractor’s vocational training efforts as part of their performance monitoring and to
document the review accordingly. A revised monthly report template contained four
training questions; however, the questions were limited to identifying the number of
students enrolled in vocational training, their progress, and disposition. An AED-S
official stated that he plans to revise the monthly report template again to better assess the
contractor’s vocational training performance.

Although the COR report template did not include an assessment of the contractor’s
vocational training efforts before September 2011, an AED-S official stated that she
performed limited quality assurance activities, including reviewing weekly contractor
training reports and conducting meetings with ITAG mentors. Specifically, the


                                             12

contractor’s weekly training reports contained student attendance averages, pretest
averages, contractor comments, and pictures of students. The AED-S official also stated
that she met with ITAG officials to discuss contractor vocational training at each ANSF
site. However, the official did not document her analysis or conclusions based on the
contractor’s weekly training reports or the meetings with ITAG. Although reviewing the
weekly contractor training reports and conducting meetings with ITAG are an important
component of quality assurance, AED-S officials should document those reviews to
reflect the nature of their quality assurance actions. Further, AED-S officials should
supplement those reviews with other quality assurance activities to assess objectively the
performance and success of the vocational training being provided to ANSF personnel.

Afghanistan Engineering District-North
The July and November 201112 COR reports addressed vocational training; however, the
reports did not address the quality of the training. Although the COR reported on the
contractor’s training performance and met with both ITAG and contractor officials, the
COR could not objectively measure whether the contractor’s performance was acceptable
because the contracts did not identify measurable performance standards to assess
contractor performance.

Additional Emphasis Needed for Vocational Training
USACE officials did not incorporate measurable performance standards in the contracts
or conduct sufficient quality assurance activities because USACE considered the
vocational training portion of the contracts to be negligible in relation to the value of
operations and maintenance services to be performed. Specifically, USACE officials did
not consider the vocational training requirements a high priority because the primary
                                         focus of the contracts was to provide operations
       USACE officials did not           and maintenance services. Officials stated that the
  consider the vocational training       majority of the work included the operation,
    requirements a high priority.        maintenance, repair, and minor construction of
                                         ANSF sites. For example, the contracting officer
stated that the training portion of the contract was only 3 percent of the contract value (or
approximately $8 million of $275 million for the base year and first option year).
Although vocational training may be negligible in dollars, developing the ANSF
infrastructure maintenance capabilities is imperative to enable ANSF forces to sustain
their infrastructure. Therefore, USACE officials should have emphasized the value and
importance of the contractor’s compliance with the vocational training requirements in
the contracts and included measurable performance standards in the performance work
statement. They also should have included performance measures in the quality
assurance surveillance plan and fully developed monthly COR report templates to assess
the quality of the contractor-provided training.




12
  Earlier COR reports were not available because the COR, who redeployed in July 2011, did not maintain
records reflecting the nature of Government contract quality assurance activities.


                                                  13

Conclusion
Until ITAG, USACE, and ANSF officials take the necessary actions to accelerate the
quality and quantity of vocational training efforts and fully implement other facility
sustainment initiatives, CSTC-A will continue to be at an increased risk of not meeting its
goal to transition operations and maintenance responsibilities to the ANSF by the end of
2014. Without this emphasis, the approximately $10.3 billion planned U.S investment in
facilities through 2012 may also be diminished if ANSF are unable to maintain their
infrastructure.

U.S. Army Corps of Engineers Management Comments
on the Finding and Our Response
The USACE Chief, Security Assistance Branch, Directorate of Military Programs,
disagreed with the finding that vocational training provided under the contracts did not
effectively develop the Afghan National Security Forces' infrastructure maintenance
capabilities. The Chief stated that the training portion of the contracts is just one factor in
the effort to develop the infrastructure maintenance capabilities of the ANSF. The Chief
continued that the overall effort would depend on multiple factors outside of the scope of
these contracts including manning, funding, authority, supplies and equipment being
provided for the ANSF.

The USACE Chief, Security Assistance Branch, Directorate of Military Programs, also
disagreed with the statement that USACE officials did not incorporate measurable
performance standards in the contracts or conduct sufficient quality assurance activities
because officials considered the vocational training portion of the contracts to be
negligible in relation to the value of operations and maintenance services. The Chief
stated that this is not an accurate statement. He stated that the audit was performed while
the training program was in its infancy and now that on-the-job training has been in place
for a while, USACE is in a position to provide measurable performance standards to the
contractor.

Our Response
We agree that the training portion of the contracts is just one factor in the effort to
develop the infrastructure capabilities of the ANSF. Since April 2011, the ITAG
Campaign Plan outlined other initiatives that, if implemented, could further assist the
ANSF in assuming full control of its facility sustainment. However, the other initiatives
do not negate the contract requirements to implement vocational training at the ANSF
sites and to ensure that the ANSF is receiving the training expected as part of established
performance standards. CSTC-A and USACE need to make every effort to decrease the
risk that CSTC-A will not meet its goal of transitioning operations and maintenance
responsibilities to the ANSF by the end of 2014.

In addition, even though the training program was in its infancy, the FAR requires
measurable performance standards and the method of assessing these standards (outlined
in the QASP) as part of the contract. These elements were still missing from the
contracts, as of March 2012, despite the training being in place for over a year.

                                              14

U.S. Army Corps of Engineers Management Comments
on the Finding Discussion and Our Response
The USACE Chief, Security Assistance Branch, Directorate of Military Programs, stated
that, as indicated in the report, USACE implemented changes in the surveillance program
(Monthly Contracting Officer’s Representative Reports section) following the final
approval of the Contractors Training Plan. The Chief stated that these improvements
included:

    	 The monthly contracting officer’s representative reports will now include
       assessments for training. 

    	 Contracting officer’s representatives have been appointed by the contracting
       officer to oversee the training/transition program. Oversight will include the
       following: 

           a. 	conducting weekly/biweekly meetings with the Contractor, CORs, ITAG
               and other parties involved in the program;
           b. 	coordinating input from ITAG mentors that are at the training sites;
           c. 	reviewing the Contractor’s progress and performance to the Training Plan;
               and
           d. 	conducting field reviews of the program.

   	 Performance metrics based on the approved Training Plan will be incorporated in
      the Quality Assurance Surveillance Plans.

Our Response
The changes in the surveillance program in addition to updating the Quality Assurance
Plans and the monthly contracting officer’s representatives reports as discussed in
Recommendations 3 and 4, will help to assess the quality of vocational training and the
ability of ANSF personnel to assume responsibility for operations and maintenance
services.

Revised and Deleted Recommendations
Based on comments from the USACE Chief, Security Assistance Branch, Directorate of
Military Programs, we updated the finding discussion in the section Performance
Standards and Quality Assurance Activities Are Needed to Assess the Contractor’s
Performance. Specifically, we agreed that while the Federal Acquisition Regulation
requires the inclusion of measurable performance standards and a method of accessing
the contractor’s performance against those measurable performance standards in the
contract, the measurable performance standards do not necessarily have to be included in
the Performance Work Statement. As a result, we revised Recommendation 3, deleted
Recommendation 4.a, and renumbered Recommendation 4.b as Recommendation 4.




                                           15

Recommendations, Management Comments, and Our
Response
1. We recommend that the Commander, Combined Security Transition Command-
Afghanistan, in coordination with the Commander, U.S. Army Corps of Engineers,
Transatlantic Division, accelerate training implementation at Afghan National
Security Forces sites with an Infrastructure Training Advisory Group mentor
presence.

Combined Security Transition Command-Afghanistan
Comments
The Interim Director, CSTC-A Combined-Joint Engineering Directorate, responding on
behalf of the Commander, Combined Security Transition Command-Afghanistan, agreed
and stated that CSTC-A is interested in accelerating training; however, “insufficient
hiring of trainees has been a key limitation.”

Our Response
Although the Interim Director, CSTC-A Combined-Joint Engineering Directorate,
agreed, the comments were partially responsive in that they stated that they were
interested in accelerating training. The recommendation is to accelerate training
implementation at Afghanistan National Security Forces sites with an Infrastructure
Training Advisory Group mentor presence. As of December 2011, 30 sites had a mentor
presence but only 17 sites had begun training. We request that the Commander,
Combined Security Transition Command-Afghanistan, provide additional comments by
July 3, 2012, detailing the specific steps that they intend to take to accelerate training, and
in particular, when training will be implemented at the remaining Afghan National
Security Forces sites with a mentor presence.

2. We recommend that the Commander, Combined Security Transition Command-
Afghanistan, accelerate efforts to:

       a. Expeditiously staff and deploy Infrastructure Training and Advisory
Group mentors to the remaining Afghan National Security Forces sites to
correspond with staffing levels in the most recent version of the Infrastructure
Training and Advisory Group Campaign Plan. 

       b. Communicate to the Afghan Ministry of Defense the need to expedite
implementing the directive assigning direct authority over maintenance personnel to
the Chief, Construction and Property Management Directorate.

      c. Communicate to the Afghan Ministry of Interior the need to increase the
number of maintenance personnel on the solar years 1391 and 1392 tashkils to
maintain the existing and future infrastructure and enroll a sufficient number of
maintenance personnel in vocational training.



                                              16

      d. Monitor the status of the Afghan Ministry of Defense draft hiring policy
and communicate to the Ministry the need to expedite implementation of the policy.

       e. Collaborate with the Afghan Ministry of Interior to develop a hiring
policy comparable to the Ministry of Defense policy and to implement additional
strategies that enable the Ministry to increase assurance that qualified maintenance
personnel are recruited and retained.

Combined Security Transition Command-Afghanistan
Comments
The Interim Director, CSTC-A Combined-Joint Engineering Directorate, responding on
behalf of the Commander, Combined Security Transition Command-Afghanistan, agreed
with Recommendations 2.a thru 2.e. In addition, for Recommendation 2.a the Interim
Director, CSTC-A Combined-Joint Engineering Directorate, stated that staffing of
CSTC-A is being pursued as aggressively as possible. Also, for Recommendation 2.e the
Interim Director commented that there appears to be a reluctance on the part of the
Afghan National Police to hire civilians to fill critical facilities maintenance positions,
which is negatively impacting their ability to take on responsibility for facility
maintenance.

Our Response
Comments from the Interim Director, CSTC-A Combined-Joint Engineering Directorate,
were responsive. We require no additional comments.

       f. Execute existing Campaign Plan initiatives and develop new initiatives to
accelerate the development of Afghan National Security Forces maintenance
capabilities by the end of 2014.

Combined Security Transition Command-Afghanistan
Comments
The Interim Director, CSTC-A Combined-Joint Engineering Directorate, responding on
behalf of the Commander, Combined Security Transition Command-Afghanistan, agreed
with the recommendation.

Our Response
Comments from the Interim Director, CSTC-A Combined-Joint Engineering Directorate,
were partially responsive. The response to the recommendation did not identify a
timeline when CSTC-A plans to execute the existing Campaign Plan initiatives and
finalize the development of new initiatives to accelerate the development of Afghan
National Security Forces maintenance capabilities as requested in the draft report. We
request that the Commander, Combined Security Transition Command-Afghanistan,
provide additional comments by July 3, 2012, detailing the timelines for the Campaign
Plan initiatives and the new initiatives.



                                            17

       3. We recommend that the Commander, U.S. Army Corps of Engineers,
Transatlantic Division, in coordination with Combined Security Transition
Command-Afghanistan, to update contracts W912ER-10-D-0002 and
W912ER-10-D-0003 to include measurable performance standards. The contracts
should describe the vocational training requirements in terms of measurable
performance standards including the quality level the Government expects the
contractor to provide to ensure the contractor’s performance meets contract
requirements.

U.S. Army Corps of Engineers Comments
The USACE Chief, Security Assistance Branch, Directorate of Military Programs,
responding on behalf of the Commander, U.S. Army Corps of Engineers, Transatlantic
Division, agreed and stated that all recommendations made by the DoD OIG will be
considered in developing the performance work statements for the follow-on contract.
The Chief stated that for the current contracts, the performance standards will be included
in the QASP, which will be incorporated into both contracts through a modification. He
stated that the QASP for both contracts are in the process of being updated with an
estimated implementation date of April 30, 2012.

Our Response
Comments from the USACE Chief, Security Assistance Branch, Directorate of Military
Programs, were responsive. USACE updated the QASP for contract
W912ER-10-D-0002 on June 7, 2012. The expected implementation date for contract
W912ER-10-D-0003 is now July 1, 2012. We require no additional comments.

        4. We recommend that the Commander, U.S. Army Corps of Engineers,
Afghanistan Engineering District-South, and Commander, U.S. Army Corps of
Engineers, Afghanistan Engineering District-North, in coordination with Combined
Security Transition Command-Afghanistan to revise the monthly contracting
officer’s representatives report templates to verify that the contractor is adequately
conducting vocational training that will enable the Afghan National Security Forces
to perform their own operations and maintenance.

U.S. Army Corps of Engineers Comments
The USACE Chief, Security Assistance Branch, Directorate of Military Programs,
responding on behalf of the Commander, U.S. Army Corps of Engineers, Afghanistan
Engineering District South, and Commander, U.S. Army Corps of Engineers,
Afghanistan Engineering District-North, agreed and stated the monthly contracting
officer representatives report templates for both contracts are in the process of being
updated with an estimated implementation date of April 30, 2012.

Our Response
Comments from the USACE Chief, Security Assistance Branch, Directorate of Military
Programs, were responsive. On June 13, 2012, USACE provided a new estimated
completion date of August 1, 2012. We require no additional comments.

                                            18

Appendix. Scope and Methodology
We conducted this performance audit in Afghanistan from January 2011 to 

February 2012 in accordance with generally accepted government auditing standards. 

Those standards require that we plan and perform the audit to obtain sufficient, 

appropriate evidence to provide a reasonable basis for our findings and conclusions based 

on our audit objective. We believe that the evidence obtained provides a reasonable basis 

for our findings and conclusions based on our audit objective. 


We determined whether vocational training provided under the contracts to conduct 

operations and maintenance services for the ANSF was effective in developing the 

infrastructure maintenance capabilities of the ANSF. We visited seven of nine ANSF 

sites in northern and southern Afghanistan where ITT had implemented vocational 

training as of July 2011 to observe training in progress: Construction and Property 

Management Department Facility Engineer Vocational and Technical Training School, 

Camp Sayar, Camp Hero, Camp Darulaman, Kabul Military Training Center, Camp 

Commando, and the National Military Hospital. We selected those sites based on 

NTM-A/CSTC-A’s report that those sites would have measurable vocational training 

progress in 2011. During those site visits, we interviewed ITAG, USACE, ITT, and sub-
contractor personnel to determine whether vocational training was implemented in 

compliance with contract requirements. 


We reviewed Federal, DoD, and Army contracting guidance. Specifically, we reviewed 

Federal Acquisition Regulation Parts 37, “Services Contracting” and 46, “Quality 

Assurance;” Defense Federal Acquisition Regulation Supplement 246, and Army 

Regulation 70-1, “Management and Oversight of Service Acquisitions.” In addition, we 

reviewed contract documentation dated from July 2010 to November 2011, including 

contracts and contract modifications for W912ER-10-D-0002 and W912ER-10-D-0003, 

COR designation letters, and quality assurance surveillance plans. We reviewed 

7 months of COR reports, May through November 2011, to evaluate the quality of the 

contractor’s vocational training efforts. Further, we reviewed transition documents, such 

as ITAG’s Campaign Plan and Transition Matrix. We interviewed appropriate officials 

from USACE AED-N and AED-S, Combined Joint Engineers, and ITAG to gain an 

understanding of the vocational training requirements in the contracts. We interviewed 

USACE AED-N and AED-S contract officials about contract administration and their 

methodology for assessing contractor performance. 


Use of Computer-Processed Data
We obtained contracts and contract modifications from the Electronic Document Access
website. Electronic Document Access is a web-based system that provides secure on-line
access, storage, and retrieval of contracts and contract modifications to authorized users
throughout the DoD. We did not assess the reliability of the system; however, not
assessing the reliability of the system did not materially affect the results of the audit
because we did not rely on the data to support our findings, conclusions, or
recommendations.


                                            19

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DoD Inspector
General (DoD IG), and the Special Inspector General for Afghanistan Reconstruction
(SIGAR) have issued seven reports related to operations and maintenance, training, and
contract oversight in Afghanistan. Unrestricted GAO reports can be accessed at
http://www.gao.gov/. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted SIGAR reports can be accessed at
http://www.sigar.mil/.

GAO
GAO Report No. 09-476T, “Iraq and Afghanistan: Security, Economic, and Governance
Challenges to Rebuilding Efforts Should Be Addressed in U.S. Strategies,” March 25,
2009

DoD IG
DoD IG Report No. D2010-059, “U.S. Department of Defense, Office of Inspector
General, Contingency Contracting: A Framework for Reform,” May 14, 2010

DoD IG Report No. SPO-2009-007, “Report on the Assessment of U.S. and Coalition
Plans to Train, Equip, and Field the Afghan National Security Forces,” September 30,
2009

SIGAR
SIGAR Audit 11-6, “Inadequate Planning for ANSF Increases Risks for $11.4 Billion
Program,” January 26, 2011

SIGAR Audit 10-14, “ANA Garrison at Farah Appeared Well Built Overall but Some
Construction Issues Should Be Addressed,” July 30, 2010

SIGAR Audit 10-12, “ANP Compound at Kandahar Generally Met Contract Terms but
Has Project Planning, Oversight, and Sustainability Issues,” July 22, 2010

SIGAR Audit 10-11, “Actions Needed to Improve the Reliability of Afghan Security
Force Assessments,” June 29, 2010




                                          20

Combined Security Transition Command-Afghanistan
Comments




                  Click to add JPEG file




                                 21
                           Final Report 

                            Reference





                         Pages 16 - 18




Click to add JPEG file




               22
Click to add JPEG file




               23
Click to add JPEG file




               24
U.S. Army Corps of Engineers Comments





                  Click to add JPEG file




                                 25
Click to add JPEG file




               26
Click to add JPEG file




               27
                           Final Report 

                            Reference





                         Revised




Click to add JPEG file




               28
                           Final Report 

                            Reference





                         Revised




Click to add JPEG file




                         Deleted




               29
                           Final Report 

                            Reference





                         Renumbered as
                         Recommendation 4




Click to add JPEG file




               30
